              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
The Department's Basic Protective
Force Training Program




DOE/IG-0641                                 March 2004
     •   None of the 10 sites included instruction in rappelling even though it was part of the
         special response team core curriculum and continued to be offered by the Nonprolif-
         eration and National Security Institute;

     •   Only one site conducted basic training on use of a shotgun, despite the fact that a num-
         ber of sites used the weapon for breaching exercises and other purposes; and,

     •   Seven of the sites modified prescribed training techniques by reducing the intensity or
         delivery method for skills that some security experts characterized as critical, such as
         handcuffing, hand-to- hand combat, and vehicle assaults.

We found that the Department’s facilities were not required to report departures from the core
curriculum to either the responsible program office or to the Office of Security. Thus, from a
central perspective, there was no effective way to evaluate the impact of these actions on the na-
tional security interests of the Department. Site security managers indicated that modifications
to the core curriculum had been made for reasons related to applicability or safety. However,
the Department had conducted significant analyses prior to the adoption of the core curriculum
as policy, including safety risk analyses.

While some level of deviation from the core curriculum to meet local conditions was under-
standable, the relatively large number of curriculum modifications identified during the audit
raised concern as to the curriculum’s validity and its usefulness as a benchmark for evaluating
the performance of protective force training. In this vein, we made a series of recommendations
intended to help the Department evaluate the impact of observed training modifications and de-
termine whether the security police officer core curriculum needs to be updated. We also rec-
ommended that the Department's program offices provide additional guidance clearly defining
the modifications that would require prior Departmental approval and/or notification.

Security force training has been the focus of a number of other recent Office of Inspector Gen-
eral reviews. In a report on Management of the Department's Protective Forces (DOE/IG-
0602, June 2003), we noted that declining training opportunities may have affected security of-
ficer morale and retention. Also, in our inspection of Protective Force Performance Test Im-
proprieties (DOE/IG-0636, January 2004), we reviewed "force-on- force" exercises at the De-
partment's Y-12 site and determined that the training test results had been compromised.


MANAGEMENT REACTION

Consolidated comments were provided covering the views of the affected program and admin-
istrative offices and the National Nuclear Security Administration. Although the comments
varied from office to office, management generally concurred with our
recommendations. Management’s comments are discussed in more detail on page 6 of the re-
port and are included in their entirety as Appendix 4.


Attachment

cc: Deputy Secretary
    Administrator, National Nuclear Secur ity Administration
    Under Secretary for Energy, Science and Environment
    Director, Office of Security
    Director, Office of Independent Oversight and Performance Assurance
THE DEPARTMENT'S BASIC PROTECTIVE FORCE TRAINING
PROGRAM


TABLE OF
CONTENTS



               Basic Protective Force Training Practices

               Details of Finding ................................................................................ 1

               Recommendations ............................................................................. 5

               Comments ........................................................................................... 6


               Appendices

               1. Objective, Scope, and Methodology.......................................... 9

               2. Prior Reports ...............................................................................11

               3. Core Curriculum Modifications .................................................13

               4. Management Comments ...........................................................14
BASIC PROTECTIVE FORCE TRAINING PRACTICES

Background              The Department of Energy (Department), through its Nonproliferation
                        and National Security Institute (NNSI) in Albuquerque, New Mexico,
                        developed a standardized training curriculum for on-site training of
                        basic security police officers and special response teams. The basic
                        core curriculum includes critical elements that are based on the results
                        of job analyses of major tasks and skill requirements and requires 320
                        hours of training. Courses, in topics such as the use of batons,
                        handcuffs, shotguns, and hand-to-hand combat, are part of the
                        curriculum. These training requirements were supported by risk and
                        safety analyses and were officially adopted by the Department.

                        In November 1999, the Department established policy to centralize the
                        conduct of the Basic Security Police Officer Training (BSPOT) at the
                        NNSI. Training was centralized because of concerns over variations in
                        delivery and to ensure uniform force readiness and interoperability
                        among the protective forces. Subsequently, in May 2001, the Secretary
                        authorized sites to provide BSPOT training locally to new hires,
                        provided that training was in accordance with the current standardized
                        Security Police Officer BSPOT curriculum. Furthermore, the Secretary
                        specified that changes to the standardized curriculum could only be
                        made for site-specific requirements where a portion of the curriculum
                        was not applicable to the site. To aid in ensuring delivery of the
                        standardized curriculum, the Office of Independent Oversight and
                        Performance Assurance agreed to incorporate the curriculum in its
                        site- level review.

                        Our review disclosed that the BSPOT and the special response team 1
Training and Delivery   standardized core curriculum was being delivered inconsistently.
Methods                 Specifically, many sites included in our review had eliminated or
                        modified significant portions of the training while others were not using
                        realistic training delivery methods (see Appendix 3). At some
                        locations, these modifications had a significant impact on the level and
                        intensity of training. For instance, one site reduced its core training
                        hours by about 40 percent, as a result of eliminating or modifying
                        training in areas such as shotgun use and baton techniques.

                        In addition, we observed that training and practical application methods
                        were inconsistently delivered even though the delivery methods had
                        been previously evaluated, deemed safe, and incorporated in the core


                        1
                         Basic special response team training is required for selected security police
                        officers. The training is separate from, and in addition to, the basic core
                        curriculum required for a security police officer position. Special response team
                        members must be capable of effective, aggressive, and timely resolution of
                        adversary actions using appropriate force and team techniques.

Page 1                                                                                Details of Finding
                  requirements. More than half of the sites reviewed used reduced force
                  or instructor demonstrations, rather than realistic practical application
                  training methods in certain areas. Officials at some sites told us that
                  tactical skills were taught only in classroom settings or at a limited
                  force level to avoid injuries. In particular, one site security official told
                  us that practical application of defensive tactics such as hand-to-hand
                  combat, take downs, or suspect restraint were performed in slow motion
                  or at a reduced level of force. An official at another site stated that the
                  site did not follow a specific standard for conducting defensive tactics
                  training and permitted instructors to reduce speed or force based on
                  needs and experience of the student. At another location, security
                  officials indicated that the site provided no practical application in
                  handcuffing and instead had instructors demonstrate techniques only on
                  other instructors. Some sites also did not provide a realistic setting for
                  vehicle assault training because they used wooden mockups or removed
                  all vehicle glass prior to the exercise. Office of Security officials
                  commented that sites that use unrealistic training methods did not meet
                  Departmental requirements because the skills acquired by the officers
                  cannot be adequately measured.

                  Additionally, we noted that none of the sites reviewed conducted
                  special response team training for rappelling even though it is contained
                  in the required curriculum for special response team members and is
                  currently taught by the NNSI. Security officials disagreed on the
                  importance of this training module. Following a fatal accident in 1995,
                  sites eliminated rappelling from special response team training because
                  of concerns over safety and the importanc e of the skill to mission needs.
                  A security official told us that a Quality Panel had recommended
                  eliminating rappelling from the core curriculum because sites no longer
                  included it in their special response team training, however, rappelling
                  remains part of the core curriculum. Office of Security officials told us
                  that rappelling training was important for team and confidence building
                  skills and that it had been the subject of a safety risk analysis. As a
                  result, NNSI continues to provide the training and has trained
                  approximately 434 officers in rappelling since 1998. We were not
                  provided a full and definitive explanation for the inconsistent
                  application of the training requirement for rappelling.

                  Modifications to the core curriculum and the training delivery methods
Core Curriculum   occurred because site security managers eliminated certain courses in
                  response to applicability or safety concerns. However, these variations
                  were not always detected or their impact on readiness assessed because
                  the Department did not require the sites to report departures from the
                  core training requirements to either the responsible program office or
                  the Office of Security.


Page 2                                                                    Details of Finding
                                Site-Level Modifications

         Sites excluded or modified certain courses from the standardized core
         curriculum in response to applicability or safety concerns. This despite
         the fact that NNSI conducted safety risk analyses for each of the
         courses in the standardized core curriculum. For example, a number of
         sites excluded shotgun and baton training because those items of
         equipment were not used at their site. Additionally, sites routinely
         utilized alternative methods in performing certain tactical exercises due
         to safety considerations. As previously discussed, certain sites deviated
         from the curriculum by eliminating glass windshields during vehicle
         assault training because of concerns related to shattering glass.
         However, we were told that the glass windshields provided a realistic
         setting so that protective force trainees could obtain a better
         understanding of ballistic and refraction properties.

         Certain sites determined that courses were unsafe while others delivered
         the same courses without modification. SO training officials indicated
         that they were aware of the inconsistencies and informed us that they
         could not understand how personnel at one site could deem a practice
         acceptable while others would refuse to administer the block of training
         using prescribed levels of force. In some of these cases, Department
         and contractor security officials indicated that site management was
         concerned because there was a correlation between the number of
         injuries incurred at a site and the contractor's performance evaluation
         rating and subsequent fee determination. At some sites instructors were
         specifically told to limit force used during training to avoid injuries.

                            Approval and Reporting Guidance

         We further noted that Federal managers could not assess the impact of
         training changes on the Department's goal of uniform force readiness
         because sites were not required to report to program offices or the
         Office of Security on modifications made to the core curriculum. A
         few of the sites we reviewed had requested and received approval from
         the Office of Security to modify the standardized core curriculum.
         However, officials at other sites told us that they were not required to
         go through an approval process before eliminating courses not
         considered applicable to their site or for safety reasons. Additionally,
         some site- level security officials indicated that as long as the course
         goal was satisfied, they were free to modify delivery methods as they
         saw fit.




Page 3                                                        Details of Finding
                  The Office of Security, which has policy responsibility for security
                  police officer training, indicated that modifications did not require
                  approval other than at the site- level. Based on information they
                  gathered, Office of Security officials believed that site-level security
                  managers should be fully cognizant of departures from the core
                  curriculum because such changes were approved by Federal officials as
                  part of the site's annual training program. Our review of these training
                  programs, however, disclosed that they frequently lacked detail
                  necessary to identify or inform management or program officials of
                  significant changes in the level of training intensity. In fact, a National
                  Nuclear Security Administration (NNSA) official indicated that they
                  were unable to fully assess the impact on the training programs and
                  force readiness because they were not provided with specific
                  information regarding modifications to site-level training programs.
                  Additionally, Office of Science program officials pointed out that the
                  modifications in training curricula and differences in training delivery
                  methods should be identified and monitored by the programs.

                                          Core Curriculum Integrity

                  We also determined that the Department had not specifically reviewed
                  site- level training programs to ensure that they conformed to the core
                  curriculum. Based on a Department analysis completed in 2001, the
                  Secretary authorized sites to conduct new- hire basic security police
                  officer training provided they adhered to the core curriculum. As
                  previously discussed, the Department's Office of Independent Oversight
                  and Performance Assurance (OA) agreed to incorporate the basic
                  training curriculum as a topical area in its reviews of site-level
                  programs. Even though OA includes certain aspects of the BSPOT in
                  their assessments of the site protective force training programs, to date,
                  they have been unable to begin curriculum reviews because of a
                  workload increase associated with the events of September 11, 2001.
                  Such reviews could identify core curriculum modifications and assist
                  the Department in assessing safety and applicability concerns expressed
                  by site security officials.

                  Inconsistent training methods may increase the risk that the
Force Readiness   Department's protective forces will not be able to safely respond to
                  security incidents or will use excessive levels of force. As noted by
                  NNSI and a private protective force orga nization, most tactical skills
                  can only be learned by repetitive practice in an appropriately realistic
                  setting. Specifically, defensive tactics training should be as realistic as
                  possible. Anything less may rob the trainee of the exposure to the



Page 4                                                                   Details of Finding
                  levels of force, panic, and confusion that are usually present during an
                  actual attack and increase the possibility of an inappropriate response in
                  high stress situations.


RECOMMENDATIONS   We recommend that the Under Secretary for Energy, Science and
                  Environment, and the Administrator, National Nuclear Security
                  Administration:

                       1. Determine the extent of and reasons for curriculum
                          modifications and differences in training delivery methods
                          throughout the Department's complex; and,

                       2. Provide additional guidance, based on the above
                          determination, defining modifications requiring prior
                          Departmental approval and/or notification.

                  We recommend that the Director, Office of Security:

                       3. In conjunction with the program offices and the information
                          gathered in response to Recommendation 1, complete
                          evaluations of the applicability of the current core curriculum
                          for basic security police officers and special response team
                          training to ensure that training is properly aligned with job and
                          policy requirements; and,

                       4. Request that the Assistant Secretary for Environment, Safety
                          and Health review the safety oversight of protective force
                          training activities to ensure there is consistency in safety
                          oversight as it relates to protective force training.

                  We recommend that the Director, Office of Independent Oversight and
                  Performance Assurance:

                       5. Incorporate basic security police officer training as a topical
                          area of review in all future field activity reviews as discussed
                          in the Secretary's memorandum of May 2001 .




Page 5                                                                Recommendations
MANAGEMENT REACTION   The Offices of Security; Science; Environmental Management; Nuclear
                      Energy, Science and Technology; Independent Oversight and
                      Performance Assurance; and Environment, Safety and Health, along
                      with the NNSA commented on a draft of this report. Comments from
                      the responding organizations varied in degrees of concurrence and non-
                      concurrence on the draft report's recommendations. Overall, the
                      program offices concurred with the recommendations to review
                      curriculum modifications and differences and to issue additional
                      guidance defining Departmental notification levels. NNSA also
                      strongly supported a review of the protective force core curriculum to
                      ensure that it met current requirements that include changes in mission
                      and threat scenarios.

                      The Office of Security fully concurred with the recommendation to
                      include basic security training as a topical area of review by OA.
                      However, it stated that the recommendation on evaluating the
                      applicability of the core curriculum was not needed because "such an
                      evaluation is conducted on a practically on-going basis and the
                      curricula is current." The applicable protective force job analyses and
                      curricula have been reviewed and updated by the NNSI and the Office
                      of Security quality panels. As an example, the Office of Security
                      pointed out that the NNSI is conducting a comprehensive review of the
                      BSPOT curriculum to ensure it meets current job task analyses and
                      mission requirements.

                      Finally, the program offices and the Office of Security pointed out the
                      need for the sites to be able to modify their training programs to reflect
                      their job and mission needs. The Office of Security also indicated that
                      security police officers supporting mission requirements at other sites is
                      not an issue for training because (1) labor issue s prohibit security police
                      officers who are members of bargaining units from acting as
                      augmentees at other sites, and (2) augmentees would receive site-
                      specific training before commencing work at another site.
                      Management's consolidated comments to this report have been
                      incorporated verbatim in Appendix 4. Based on management's
                      comments, where appropriate, adjustments have been made to the body
                      of the report and the recommendations.

                      Management comments were generally responsive to our
AUDITOR COMMENTS      recommendations.

                      Regarding the Office of Security's disagreement with the need for the
                      recommendation on evaluating the applicability of the core curriculum,



Page 6                                                                               Comments
         we believe that the NNSI and Office of Security evaluations cited above
         should continue. Furthermore, the evaluations should be conducted in
         conjunction with the program offices and reflect information gathered
         by those offices regarding how sites have modified the core curriculum
         and the reasons for the modifications. The intent of the
         recommendation is to evaluate the standardized core curriculum
         developed by the NNSI, and approved by the Department; to determine
         which portions of the training, if any, should be eliminated; and to
         determine if training is properly aligned with Departmental job and
         policy requirements.

         Based on the number of modifications that we identified during the
         audit, we believe that changes may need to be made to the core
         curriculum, or sites may need to revisit their modifications of the
         curriculum. We recognize that quality panels play an important role in
         evaluating the core curriculum; however, they can only recommend that
         changes be made. The Office of Security has the final approval over
         any recommended changes. As previously discussed, in the case of
         rappelling, there is a difference of opinion among security officials
         about the importance of this training block. In spite of this
         disagreement, NNSI continues to include rappelling training in the core
         curriculum, but no other site is instructing that portion of the
         curriculum.

         We have modified the recommendation pertaining to safety oversight to
         reflect the Office of Security's concerns about the consistency of
         protective force training safety oversight. However, it is, in our
         judgment, the Office of Security's responsibility to request a review by
         the Assistant Secretary for Environment, Safety and Health because the
         initial safety risk analyses supporting the core curriculum were
         conducted by the NNSI.

         Regarding concerns expressed by the program offices and the Office of
         Security that sites have the authority to modify the core curriculum to
         meet their specific needs, given the Department's ongoing commitment
         to enhancing security at its key facilities, such modifications should
         have higher level visibility as envisioned in the first two
         recommendations. In that regard, we recognize that the Secretary of
         Energy's May 15, 2001, memorandum permits sites to conduct new hire
         BSPOT training and allows sites to make changes to the standard
         curriculum for site-specific requirements where a portion of the
         curriculum is not applicable. However, that memorandum, as well as
         relevant Department orders, were issued prior to the events of



Page 7                                                               Comments
         September 11, 2001. Since then, the emphasis on homeland security
         and the protection of national assets has increased significantly. For
         example, the Department has developed a new Design Basis Threat -
         policy and has increased the number of protective force personnel by
         about 500 officers. Additionally, it has been the Department's policy to
         train its security forces to deal with a broad spectrum of threats by
         providing a standardized, core training curriculum that ensures
         interoperability across the complex.

         Regarding the Office of Security's position that interoperability of the
         protective forces is not a training issue, we disagree. Specifically, a
         work stoppage caused by labor issues is only one event that could
         necessitate the transfer of protective forces to another site. Other
         events, non- labor related, could lead to the transfer of protective forces
         and not provide the time to train the augmentees in the specific site's
         equipment or needs.




Page 8                                                                  Comments
Appendix 1

OBJECTIVE     To determine whether sites were meeting the Department's
              standardized, basic protective force core training curriculum.


SCOPE         We conducted the audit from February 2003 to September 2003, at
              Department of Energy Headquarters in Washington, DC; the
              Nonproliferation and National Security Institute in Albuquerque, New
              Mexico; the Oak Ridge Complex in Oak Ridge, Tennessee; the
              Lawrence Live rmore National Laboratory in Livermore, California; and
              the Nevada Test Site in Nye County, Nevada. We also interviewed
              officials from the following organizations:

                       Federal Law Enforcement Training Center, Cheltenham, MD
                       National Aeronautics and Space Administration
                       Department of State
                       Nuclear Regulatory Commission


METHODOLOGY   To accomplish the audit objective, we:

                   •    Reviewed applicable Federal regulations, Departmental
                        orders, and implementing procedures and practices;

                   •    Reviewed performance evaluation reports and/or performance
                        measures at selected sites;

                   •    Reviewed protective force annual training budgets at selected
                        sites;

                   •    Obtained and reviewed Office of Security strength reports
                        since 1992;

                   •    Obtained and reviewed the National Nuclear Security
                        Administration quarterly strength report for April 2003;

                   •    Collected and analyzed training hours and cost data for the
                        Nonproliferation and National Security Institute;

                   •    Collected and analyzed training hours and cost data for 12 of
                        the Department's sites:

                        -   Lawrence Livermore National Laboratory,
                        -   Nevada Test Site,
                        -   Oak Ridge Complex,

Page 9                                         Objective, Scope, and Methodology
                   -   Rocky Flats Environmental Technology Site,
                   -   Hanford Site,
                   -   Pantex Plant,
                   -   Savannah River Site,
                   -   Los Alamos National Laboratory,
                   -   Idaho National Engineering and Environmental
                       Laboratory,
                   -   Sandia National Laboratories (New Mexico),
                   -   Sandia National Laboratories (California), and
                   -   Sandia National Laboratories (Tonapah Test Range);

               •   Reviewed performance related information to determine
                   compliance with the Government Performance and Results
                   Act of 1993;

               •   Held discussions with Headquarters and other Federal
                   Government officials regarding the Department's protective
                   forces; and,

               •   Held discussions with officials from Lawrence Livermore and
                   Oak Ridge National Laboratories, as well as, the Nevada Test
                   Site and the Nonproliferation and National Security Institute
                   regarding protective forces.

          The audit was performed in accordance with generally accepted
          Government auditing standards for performance audits and included
          tests of internal controls and compliance with laws and regulations to
          the extent necessary to satisfy the audit objective. Accordingly, the
          assessment included reviews of Departmental and regulatory policies,
          procedures, and performance measures related to the Department's
          protective forces. Because our review was limited, it would not
          necessarily have disclosed all internal control deficiencies that may
          have existed at the time of our audit. We did not conduc t a reliability
          assessment of computer-processed data because only a very limited
          amount of computer-processed data was used dur ing the audit.

          The exit conference was held with management on March 1, 2004.




Page 10                                    Objective, Scope, and Methodology
Appendix 2
                                      PRIOR AUDIT REPORTS

    Office of Inspector General Related Reports

          •   Management of the Department's Protective Forces (DOE/IG-0602, June 2003).
              Although the Department had taken steps to improve the management of its protective
              forces, it still faced a number of challenges that could adversely affect the program.
              These challenges included delays in processing security clearances, increasing
              overtime costs, potential retention problems, and operational vulnerabilities associated
              with unscheduled work stoppages. Management generally concurred with the findings
              and recommendations and agreed to initiate corrective actions.

          •   The Restructure of Security Services by the Oak Ridge Operations Office
              (DOE/IG-0487, October 2000). The Oak Ridge Operations Office (Operations Office)
              did not manage the restructuring of its security services in a way that would have
              achieved its goals. Specifically, the Operations Office did not perform an analysis of
              security service staffing levels, determine the scope of work to be transferred, or
              develop cost-reduction measures or incentives to ensure efficient contractor
              performance. In addition, the Operations Office did not consider cost as a ranking
              factor in the selection of security services. Management concurred with the finding
              and recommendations and agreed to initiate corrective actions.

          •   Audit of Construction of Protective Force Training Facilities at the Pantex Plant
              (WR-B-95-06, May 1995). Construction of a physical training facility at the
              Department's Pantex Plant was not necessary to fulfill mission needs, and the
              Department did not consider all viable alternatives to constructing a weapons tactics
              and training facility. These conditions occurred because a Justification for New Start
              was never prepared and approved for these two projects. Management did not concur
              with all of the recommendations.

          •   Audit of the Department of Energy's Security Police Officer Training (CR-B-95-03,
              February 1995). The audit disclosed that the Department had not established
              standardized annual refresher training requirements for its security forces and
              individual sites were developing and implementing training programs and course plans
              without emphasis on standardization.

          •   Audit of the Management and Cost of the Department of Energy's Protective Forces
              (DOE/IG-0354, July 1994). The audit noted several opportunities for the Department
              to improve the operational efficiency of the protective forces, including eliminating
              overtime paid to officers prior to completion of the basic 40- hour workweek.
              Management concurred with the findings and recommendations and agreed to take
              appropriate actions to improve the efficiency of managing protective forces.




Page 11                                                                                      Prior Reports
          •   Management of the Central Training Academy, Albuquerque, New Mexico
              (DOE/IG-0309, May 1992). The audit disclosed that Wackenhut (1) was provided
              credentials and shields that improperly identified employees as being Federal agents
              and officers, and used the Department's official seal without proper authorization, (2)
              incurred costs not necessary for performing contract work, (3) performed work outside
              the general scope of its contract, and (4) operated a souvenir store on Government
              property. All of these activities occurred with the knowledge of Department officials.
              Management generally agreed with the findings and recommendations.

    General Accounting Office Related Reports

          •   Nuclear Security, NNSA Needs to Better Manage Its Safeguards and Security Program
              (GAO-03-471, May 2003). NNSA has not been fully effective in managing its
              safeguards and security program in four key areas. As a result, NNSA cannot be
              assured that its contractors are working to maximum advantage to protect critical
              facilities and material from individuals seeking to inflict damage. The four areas are as
              follows: (1) Defining clear roles and responsibilities; (2) Assessing sites' security
              activities; (3) Overseeing contractors' corrective actions; and (4) Allocating staff.
              NNSA disagreed with GAO's conclusion that NNSA was not ensuring the
              comprehensive, annual assessments of contractors' performance that DOE policy
              requires. GAO continues to believe that NNSA's current efforts do not ensure
              conformance to DOE policy.

          •   Department of Energy, Key Factors Underlying Security Problems at DOE Facilities
              (GAO/T-RCED-99-159, April 1999). Phys ical security controls involve the
              protection, primarily through security personnel and fences, of facilities and property.
              In 1991, GAO reported that security personnel were unable to demonstrate basic skills
              such as the apprehension and arrest of ind ividuals who could represent a security
              threat. Prior to that report, in 1990, GAO reported that weaknesses were occurring
              with security personnel, as some security personnel could not appropriately handcuff,
              search, or arrest intruders or shoot accurately.




Page 12                                                                                      Prior Reports
Appendix 3


                           Core Curriculum Modifications by Site
                             X indicates a modification has been made to curriculum




  Site Locations        Shotgun      Baton       Rappelling         Modified              Other courses
                                                                    Defensive              excluded or
                                                                     Tactics                modified
 Lawrence Livermore         X                          X          Information not
 National Laboratory                                              available at time
                                                                      of audit
 Nevada Test Site           X           X              X                              Vehicle assaults

 Oak Ridge Complex          X           X              X
 Rocky Flats                X                          X                 X
 Environmental
 Technology Site
 Hanford Site                           X              X                 X            Moving vehicle assault

 Sandia National            X                          X                              Rifle, vehicle stops,
 Laboratories                                                                         aerosol/chemical spray
 (California)
 Pantex Plant               X           X              X                 X
 Savannah River Site        X                          X                 X            Vehicle assaults

 Los Alamos National        X           X              X                 X            Reloading drills
 Laboratory
 Idaho National             X                          X                 X            Vehicle assaults
 Engineering and
 Environmental
 Laboratory




  NOTE: Training at Sandia National Laboratories (New Mexico and Tonopah Test Range) was not conducted
  on-site, therefore was not included in the above chart.




Page 13                                                                      Core Curriculum Modifications
Appendix 4




Page 14      Management Comments
Appendix 4 (continued)




Page 15                  Management Comments
Appendix 4 (continued)




Page 16                  Management Comments
Appendix 4 (continued)




Page 17                  Management Comments
Appendix 4 (continued)




Page 18
                                                                              IG Report No.: DOE/IG-0641

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________            Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www. ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
